BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief in Opposition in
19-62, Michelle Carter v. Commonwealth of
Massachusetts, were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 22nd day of November, 2019:
DANIEL N. MARX
Fick & Marx LLP
24 Federal Street, 4th Floor
Boston, MA 02110
(857) 321-8360
dmarx@fickmarx.com

Counsel for Petitioner
MAURA HEALEY
Attorney General of Massachusetts
ELIZABETH N. DEWAR*
State Solicitor
MARIA GRANIK
Assistant Attorney General
One Ashburton Place
18th Floor
Boston, MA 02108
bessie.dewar@mass.gov
(617) 963-2204
*Counsel of Record

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 22, 2019 .

.1-c.

Julie A. Kershne\
Becker Gallagher
1 Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

